OIG Audit Report GR-40-07-001

Office of Justice Programs
National Institute of Justice
Solving Cold Cases with DNA 
Grant Awarded to the
City of North Miami, Florida

Audit Report GR-40-07-001


November 2006
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division has completed an audit of a Solving Cold Cases with DNA grant awarded by the Office of Justice Programs (OJP), National Institute of Justice (NIJ) to the City of North Miami, Florida.  The goal of the cold case program is to apply new DNA technologies to existing evidence in older unsolved cases determined by the police to be highly solvable so that investigators can close the cases.  In April 2005, the OJP awarded the City of North Miami $525,815 for use in solving 22 homicide and 300 sex crime cases.  Through the grant, the City seeks to reduce its cold case backlog by 20 percent over 3 years.  The award is administered by the Citys police department.
The City seeks to reduce its cold case backlog through an investigative team approach.  An investigative team consisting of homicide detectives and crime scene technicians prioritizes cases amenable to new DNA testing techniques and analyzes evidence in each case.  Team members review unsolved case profiles and compile data that is compared to convicted offender DNA databases.  Criminal suspects identified as a result of DNA analysis are forwarded to the district attorneys office for prosecution.
We assessed the Citys performance under the grant by comparing results achieved to the grant objectives.  We also assessed compliance with six essential grant conditions.  We found that the City was accomplishing the required performance and generally complied with grant requirements.  However, we found material weaknesses in financial status reporting, grant drawdowns, and grant expenditures.  The City corrected each of these weaknesses prior to completion of our audit.
Our audit objectives, scope, and methodology appear in Appendix I. We discussed the results of our audit with the Citys officials and have included their comments in the report as applicable.